                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A07120065
                                                                              11          Page 1 of 1



         We considered an allegation that the subject's' REU proposal2 contained material plagiarized
         from two previously funded REU proposals.3 However, the material from the alleged source
         proposals was rephrased in the subject's own REU program. Text similarities are limited to the
         description of common concepts and best practices for operation of similar programs. There is
         no evidence to support an allegation of plagiarism.

         Accordingly, this case is closed.




          '   Redacted.
              Redacted.
              Redacted.



VSF OIG Form 2 (1 1/02)
